<html>
<title> - MARKUP OF COMMITTEE RESOLUTION 115-21</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]




 
                 MARKUP OF COMMITTEE RESOLUTION 115-21

=======================================================================

                                 MARKUP

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 26, 2018

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      





                       Available on the Internet:
         http://www.govinfo.gov/committee/house-administration        
         
         
         
         
                              _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 33-312                  WASHINGTON : 2018            
 
 
 
         
         
                   Committee on House Administration              
                   
                  

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS, Illinois, Vice         ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia


                 MARKUP OF COMMITTEE RESOLUTION 115-21

                              ----------                              


                     WEDNESDAY, SEPTEMBER 26, 2018

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:00 a.m., in Room 
1310, Longworth House Office Building, Hon. Gregg Harper 
[Chairman of the Committee] presiding.
    Present: Representatives Harper, Davis, Walker, Smith, 
Loudermilk, and Brady.
    Staff Present: Sean Moran, Staff Director; Kim Betz, Deputy 
Staff Director/Policy and Oversight; Steven Wall, Deputy 
General Counsel; Dan Jarrell, Legislative Clerk; Elizabeth 
Joseph, Professional Staff; Courtney Parella, Communications 
Director; Jamie Fleet, Minority Staff Director; Khalil Abboud, 
Minority Deputy Staff Director; and Eddie Flaherty, Minority 
Chief Clerk.
    The Chairman. I now call to order the Committee on House 
Administration. For purposes of today's Committee meeting, a 
quorum is present, so we may proceed. The meeting record will 
remain open for 5 legislative days so that Members may submit 
any materials they wish to be included therein.
    There is one item on the docket today, and that is 
Committee Resolution 115-21, adopting the recommended standards 
and processes submitted by the House officers in response to 
Committee Resolutions 115-13 through 18.
    As you all recall, this past April the Committee adopted a 
package of resolutions, Committee Resolutions 115-13 through 
115-18, to strengthen the oversight of shared administrative 
employees.
    The resolution set forth policies and the Committee 
identified as essential to ensuring that risks posed to the 
House by the practice of sharing employees were sufficiently 
mitigated.
    The resolutions directed the House Chief Administrative 
Officer, the House Sergeant-at-Arms, and the Clerk of the House 
to report back to the Committee within 30 days on the plans to 
implement these policies.
    While each House officer met the deadline, the Committee 
allowed for extra time to address concerns more thoroughly. The 
Committee received revised standards and processes from the 
Chief Administrative Officer on September 14, 2018.
    Last night the Committee received an additional letter from 
the CAO, a copy of which you all have been provided. I ask 
unanimous consent that the letter be entered into the record, 
and without objection, so entered.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    The Chairman. The Committee is prepared to adopt today 
those revised standards and processes, as well as the 
recommendations previously submitted by the House Sergeant-at-
Arms and the Clerk of the House.
    I would now like to recognize the Ranking Member, Mr. 
Brady, for the purpose of providing an opening statement.
    Mr. Brady. Thank you, Mr. Chairman. Thank you for calling 
this meeting.
    Mr. Chairman, unless the Committee meets in a lame duck, 
this is likely to be the last time we will be sitting together 
at this dais, and I want you to know it has been an absolute 
pleasure to work with you.
    You have been a total class act the entire time as you have 
been Chairman. And the few things, very, very few things I will 
miss is to be working with you, not being here.
    I have said many times before I would like to thank you for 
your bipartisan work, working together, and making it a 
pleasure to work on this Committee.
    We have worked on shared employees issues for years, and 
today represents another step in trying to find the balance 
between letting Members run their offices with broad discretion 
and working to make sure that all our rules and regulations are 
followed and enforced.
    I would like to also thank Mr. Davis for having meetings 
with me and my staff and many other meetings.
    I believe this might be your baby. You really worked on 
this and cared for it and now it is coming to fruition.
    So while I am certain the next Congress will continue to 
wrestle with these issues, hopefully it will be a little easier 
because of the work we do here today.
    I want to thank the shared employees who gave us feedback 
for this proposal. I know it is not everything you wanted, but 
hopefully it represents a compromise document that helps 
improve how our House operations. I support the resolution 
before us and urge my colleagues to do the same.
    And before I yield back the balance of my time, Mr. 
Chairman, I want to give you a hug.
    The Chairman. You know, they usually only write or do news 
stories on the fussing and fighting.
    Mr. Brady. That is why they are never here.
    The Chairman. I know. I know. But what I want to say is, I 
want to echo those sentiments. And I am going to miss working 
with you, but I hope that we can maintain this friendship past 
Congress.
    Mr. Brady. I hope so.
    The Chairman. And would love to come up to Philadelphia for 
some sightseeing and hang out with you Mr. Brady. There is a 
Philadelphia, Mississippi, isn't there?
    The Chairman. There is. It is in my district, as a matter 
of fact. And it is a great place. Mississippi Band of Choctaw 
Indians is located in Philadelphia. And also the Williams 
Brothers Grocery is there, and that is the family of Archie 
Manning's wife, Olivia. So, I mean, you would almost have to go 
to Williams Brothers to check it out.
    Mr. Brady. Thank you.
    The Chairman. And I just want to thank you, not just for 
the way we have worked together for these 10 years, but your 
friendship. And if this is our last hearing, I will always 
remember the special hug, and I appreciate that. Thank you.
    I would ask if any other Member of the Committee wishes to 
be recognized for the purpose of providing an opening 
statement.
    I now call up and lay before the Committee, Committee 
Resolution 115-21, to adopt the recommended standards and 
processes submitted by the House officers in response to the 
directives laid out in Committee Resolutions 115-13 through 
115-18. Without objection, the first reading of the resolution 
is dispensed with and the resolution is considered read and 
open for amendment.
    [The resolution follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    The Chairman. Is there any debate? Are there any Members 
who want to offer an amendment to the resolution?
    If not, I move the Committee adopt the resolution. The 
question is on the motion.
    All those in favor, signify by saying aye.
    Opposed, say nay.
    In the opinion of the Chair, the ayes have it.
    Without objection, the motion to reconsider is laid upon 
the table. I ask unanimous consent that the staff be allowed to 
make necessary technical and conforming changes to the bills 
ordered reported today subject to the approval of the minority. 
Hearing no objection, so ordered.
    I would like to now take a moment before we adjourn because 
this may be one of the last business meetings this Committee 
holds this year. I want to thank every person, every Member on 
this Committee, majority and minority.
    I have been on the Committee on House Administration since 
I started in January of 2009 with Mr. Brady as the Chairman, 
and it has been a great Committee to be on. We have worked 
together almost always in a bipartisan method and manner.
    And in the times that we didn't agree, I just want to 
compliment Mr. Brady because it was never, the differences that 
we had were never personal. They may have been on policy or 
issues. But I think Congress works better this way.
    And I thank each of you for your service on this Committee, 
and I wish everyone well as we go through the rest of this 
year.
    And now, without objection, this markup is adjourned.
    [Whereupon, at 11:10 a.m., the Committee was adjourned.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
</pre></body></html>
